Washington, D.C. 20530

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Edward J. Kosinski v. United States of America,
S.Ct. No. 20-1161
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 19, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 5, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1161
KOSINSKI, EDWARD J.
USA

MICHAEL BOSWORTH
LATHAM & WATKINS LLP
885 THIRD AVENUE
NEW YORK, NY 10022-4834
212-906-1221
MICHAEL.BOSWORTH@LW.COM
ALEXANDRA ANASTASIA EKATERINA
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212 257-4880
ASHAPIRO@SHAPIROARATO.COM

